D2009-085                      June 8, 2009




 Contracting for Nontactical Vehicles in Support
        of Operation Enduring Freedom
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CG                    Commanding General
CJTF-101              Combined Joint Task Force-101
COR                   Contracting Officer’s Representative
CSTC-A                Combined Security Transition Command-Afghanistan
FAR                   Federal Acquisition Regulation
IG                    Inspector General
JCC-I/A               Joint Contracting Command-Iraq/Afghanistan
JCCS                  Joint Contingency Contracting System
NTV                   Nontactical Vehicle
PARC-A                Principal Assistant Responsible for Contracting-Afghanistan
RCC                   Regional Contracting Center
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704
                                                                                        June 8,2009

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, JOINT CONTRACTING COMMAND-
                 IRAQ/AFGHANISTAN
               PRINCIPAL ASSISTANT RESPONSIBLE FOR CONTRACTING-
                 AFGHANISTAN
               COMMANDER, COMBINED JOINT TASK FORCE-1OI
               COMMANDER, COMBINED SECURITY TRANSITION COMMAND-
                 AFGHANISTAN
               CHIEF, REGIONAL CONTRACTING CENTER BAGRAM
               CHIEF, REGIONAL CONTRACTING CENTER KABUL


SUBJECT: Contracting for Nontactical Vehicles in Support of Operation Enduring Freedom
         (Report No. D2009-085)

We are providing this report for review and comment. We considered management comments on a
draft of this report in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. While the Joint
Contracting Command-Iraq/Afghanistan did not comment on Recommendation B.2., its actions were
responsive. The comments from the Principle Assistant Responsible for Contracting-Afghanistan in
response to Recommendation B.3. and the comments from the Combined Security Transition
Command-Afghanistan in response to Recommendation A.4. were responsive. The remaining
comments were partially responsive. The Regional Contracting Center Bagram did not comment on
the draft report. In response to management comments, we revised Recommendations A.I ., A.2.,
A.3., A.4., and B.l.b. We request additional comments on the revised recommendations, as well as
on Recommendations B.l.a., B.l.c., and B.l.d., by July 8, 2009. Please see the recommendations
table on page ii.

Please provide comments that confonn to the requirements of DoD Directive 7650.3. If possible,
send your comments in electronic fonnat (Adobe Acrobat file only) to audros@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your organization. We
are unable to accept the / Signed / symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8905
(DSN 664-8905).


                                            Paul 1. Granetto



                                            C~:!:::e:::
                                            Readiness, Operations, and Support
Report No. D-2009-085 (Project No. D2008-D000LH-0235.001)                                          June 8, 2009


               Results in Brief: Contracting for Nontactical
               Vehicles in Support of Operation Enduring
               Freedom
                                                           We determined that these deficiencies in
What We Did                                                management of NTVs and contract documentation
                                                           constitute material weaknesses in the internal
Our overall audit objective was to determine
                                                           controls over the contracting for NTVs. Commands
whether contracting for nontactical vehicles (NTVs)
                                                           can improve these deficiencies by implementing our
in support of Operation Enduring Freedom was
                                                           recommendations.
effective. Specifically, we examined unit
justification for NTVs and contract award and
administration processes for NTV contracts awarded         What We Recommend
in Afghanistan in support of Operation Enduring            We recommend that the Commander, CJTF-101 and
Freedom.                                                   Commander, CSTC-A determine the quantity of
                                                           NTVs needed to meet recurring NTV requirements,
What We Found                                              establish or expand motor pools at sites throughout
                                                           Afghanistan, and review all NTV leases to
While the Combined Joint Task Force-101
                                                           determine necessity.
(CJTF-101) and the Combined Security Transition
Command-Afghanistan (CSTC-A) have recently
                                                           We also recommend that the Chiefs, Regional
improved controls over the NTV acquisition
                                                           Contracting Centers (RCCs) Bagram and Kabul
process, there is more that can be done to improve
                                                           require contracting officers to maintain contract files
the management of recurring NTV requirements.
                                                           that can fully reconstruct the history of the contract,
We estimate that 68 percent of NTV contract files
                                                           review lease-versus-purchase analyses to ensure best
did not contain adequate justification for the NTVs
                                                           value for the Government, and appoint contracting
and 85 percent did not contain documentation to
                                                           officer’s representatives to oversee NTV contracts.
show that contracting officers appointed contracting
officer’s representatives to oversee contracts.
Therefore, DoD did not have reasonable assurance           Management Comments and
that 795 vehicles at a cost of more than $14 million       Our Response
were mission-essential, complied with the contract         CJTF-101 and CSTC-A agreed or partially agreed,
requirements, or represented the best value to the         but did not provide actions planned or taken to
Government. In addition, we identified more than           identify recurring NTV requirements or establish
$1.4 million paid for NTV leases that were later           motor pools. RCC Kabul stated that it will
disapproved by the NTV Review Board. Additional            emphasize the requirement to maintain complete
oversight and centralized management of NTVs               contract files during training, even though it is in
could increase the efficiency of acquiring the NTVs        place at all RCCs. We acknowledge RCC Kabul’s
necessary to support Operation Enduring Freedom.           effort to appoint contracting officer’s representatives
                                                           for lease contracts with a large number of vehicles,
Despite these issues, we commend the Joint                 but emphasize the importance of performing and
Contracting Command-Iraq/Afghanistan for                   documenting acceptance for all vehicles. RCC
updating its Acquisition Instruction to include            Bagram did not provide comments.
guidance for maintaining contract files.
Implementation of this guidance will help ensure           We request that the parties referenced in the
contracting officers maintain contract files that          recommendations table on the back of this page
provide an adequate history of the transaction.            provide comments by July 8, 2009.



                                                       i
Report No. D-2009-085 (Project No. D2008-D000LH-0235.001)                      June 8, 2009

Recommendations Table

Management                        Recommendations           No Additional Comments
                                  Requiring Comment         Required
Commander, Joint Contracting                                B.2.
Command-Iraq/Afghanistan

Principal Assistant Responsible                             B.3.
for Contracting-Afghanistan

Commander, Combined Joint         A.1., A.2., A.4.          A.3.
Task Force-101

Commander, Combined Security      A.1., A.2., A.3.          A.4.
Transition Command-
Afghanistan
Commander, RCC Bagram             B.1.
Commander, RCC Kabul              B.1.c.                    B.1.a., B.1.b., B.1.d.

Please provide comments by July 8, 2009.




                                           ii
Table of Contents

Results in Brief                                                             i

Introduction                                                                 1

       Objective                                                             1
       Background                                                            1
       Review of Internal Controls                                           3

Finding A. Centralizing the Management of Nontactical Vehicles
      in Afghanistan                                                         4

       Management Comments on the Findings and Our Response                  7
       Recommendations, Management Comments, and Our Response                7

Finding B. Contracting for Nontactical Vehicles in Support of Operation
      Enduring Freedom                                                      11

       Management Actions and Conclusions                                   15
       Recommendations, Management Comments, and Our Response               16

Appendices

       A. Scope and Methodology                                             21
             Prior Coverage                                                 23
       B. Management Comments on the Findings and Our Response              24

Management Comments

       U.S. Central Command                                                 27
       Joint Contracting Command-Iraq/Afghanistan and Principal Assistant
              Responsible for Contracting-Afghanistan                       28
       Combined Joint Task Force-101                                        30
       Combined Security Transition Command-Afghanistan and Regional
              Contracting Center Kabul                                      36
Introduction
Objective
Our overall audit objective was to determine whether contracting for nontactical vehicles
(NTVs) in support of Operation Enduring Freedom was effective. Specifically for this
audit, we looked at the need justification, contract award, and administration processes
for NTV contracts awarded in Afghanistan in support of Operation Enduring Freedom.
See Appendix A for a discussion of the scope, methodology, and prior coverage.

Background
We performed this audit as required by Public Law 110-181, “National Defense
Authorization Act for Fiscal Year 2008. Section 842 requires thorough investigation and
auditing in order to identify potential waste, fraud, and abuse in the performance of DoD
contracts, subcontracts, and task and delivery orders for the logistical support of coalition
forces in Iraq and Afghanistan. Further, Section 842 requires thorough investigation and
auditing of Federal agency contracts, subcontracts, and task and delivery orders for the
performance of security and reconstruction functions in Iraq and Afghanistan.

In response to the Act, we collaborated with the Inspectors General of the Department of
State and U.S. Agency for International Development, Special Inspector General for Iraq
Reconstruction, Auditors General of the U.S. Army Audit Agency and U.S. Air Force
Audit Agency, and Director of the Defense Contract Audit Agency to develop a
comprehensive audit plan for Southwest Asia. The audit plan includes key issue areas,
such as financial management, systems contracts, and human capital for contract
administration. This plan highlighted ongoing and planned work for each of these
agencies, and identified the purchasing and leasing of vehicles in support of Operation
Enduring Freedom as our audit issue area.

The Department of the Army is the executive agent for contracting for Operation
Enduring Freedom. The Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) delegated the authority as head of contracting activity to the Commander,
Joint Contracting Command-Iraq/Afghanistan (JCC-I/A). This authority applies to all
contracting activities assigned or attached to U.S. Central Command, with the exception
of the U.S. Army Corps of Engineers.

JCC-I/A provides operational contracting support in Iraq and Afghanistan for the
coalition forces and the relief and reconstruction of Iraq and Afghanistan. This is done
via two Principal Assistants Responsible for Contracting (PARCs), one for Afghanistan
and one for Iraq. JCC-I/A operates Regional Contracting Centers (RCCs) throughout
Iraq and Afghanistan. RCCs carry out the JCC-I/A mission by supporting the contracting
requirements of local commands.




                                              1
The Combined Joint Task Force-101 (CJTF-101) and the Combined Security Transition
Command-Afghanistan (CSTC-A) are commands in Afghanistan. The mission of
CJTF-101 is to aid in battling insurgent forces, develop Afghanistan’s national security,
and support the development of a stable Afghani government. The mission of CSTC-A is
to plan, program, and implement structural, organizational, institutional, and management
reforms of the Afghanistan National Security Forces in order to develop a stable
Afghanistan, strengthen the rule of law, and deter and defeat terrorism. The figure
depicts the command and coordination structure.

                          Figure. JCC-I/A Theater Support




Federal and DoD Guidance
DoD guidance defines NTVs as any commercial vehicle or trailer acquired and assigned
based on authorization documents and used for providing administrative, direct mission,
or operational transportation support of military functions. For purposes of this audit, we
considered NTVs to include sedans, trucks, vans, and sport utility vehicles (armored and
unarmored). Acquiring NTVs for use in theater requires due diligence in identifying and
justifying the need, documenting decisions for leasing or purchasing, and documenting
award decisions. The Federal Acquisition Regulation (FAR), Defense Federal




                                             2
Acquisition Regulation Supplement, Army Federal Acquisition Regulation Supplement,
DoD regulations, and Army regulations provide guidance for acquiring NTVs. The
Federal and DoD guidance collectively requires:

      contract files to contain sufficient documentation to provide an adequate audit
       trail to document decisions throughout the acquisition process, including
       justifications, approvals, and source selection documentation;
      consideration of leasing versus purchasing (cost benefit to the Government);
      contracting officers and contracting officer’s representatives (CORs) to ensure
       that the goods and services delivered comply with the contract requirements; and
      internal policy, guidance, and standard operating procedures developed by heads
       of DoD components to ensure effective and efficient administration of the
       procurement, operation, maintenance, and use of motor vehicles.

Review of Nontactical Vehicle Contracts
We examined a statistical sample of contract actions from the Joint Contingency
Contracting System dated October 1, 2005, through July 15, 2008. We examined a
sample of 38 contract actions from RCC Bagram and 28 contract actions from RCC
Kabul (see Appendix A). These 66 contract actions totaled $14,076,189 for 795 NTVs.
The types of contract actions in the audit sample included individual contracts; task
orders on indefinite-delivery, indefinite-quantity contracts; and orders against blanket
purchase agreements. Table 1 identifies the number of vehicles, by type, included in the
review of 66 contract actions at RCCs Bagram and Kabul.

              Table 1. Vehicles Included in Scope of Statistical Sample
                                                  Armored
    RCC        Sedans Trucks Vans SUVs                         Total    Total Value
                                                  Vehicles
Bagram           0       43         3       42         0         88     $ 1,315,440
Kabul           393      29         3      252        30        707      12,760,749
   Total        393      72         6      294        30        795     $14,076,189

Review of Internal Controls
We identified material internal control weaknesses with the management of NTVs as
defined by DoD Instruction 5010.40, “Managers’ Internal Control Program (MIC)
Procedures,” January 4, 2006. DoD Instruction 5010.40 states that internal controls are
the organization, policies, and procedures that help program and financial managers
achieve results and safeguard the integrity of their programs.

Internal controls for the acquisition of NTVs were generally in place; however, we saw
that contracting officers at RCCs Bagram and Kabul did not comply with key contracting
controls and that some of those controls needed improvement. We describe these issues
of noncompliance and controls needing improvement in our report findings.
Implementing Recommendations B.1., B.2., and B.3. will improve the internal controls
over NTV contracting and management procedures. We will provide a copy of the report
to the senior JCC-I/A official responsible for management controls.



                                            3
Finding A. Centralizing the Management of
Nontactical Vehicles in Afghanistan
PARC-A, CJTF-101, and CSTC-A have recently improved controls over the NTV
acquisition process; however, there is more that can be done to improve the management
of recurring requirements to ensure effective contracting for NTVs. Specifically,
improving the oversight and centralized management of leased NTVs and mission
requirements should provide DoD assurance that it is acquiring the vehicles necessary to
support mission requirements while mitigating the risks of potential waste of Government
funds.

Strengthening Controls Over Vehicle Acquisition
and Usage
CJTF-101, CSTC-A, and PARC-A have recently strengthened controls over the NTV
acquisition process and usage of NTVs by implementing vehicle registration procedures,
establishing an NTV Review Board, and issuing policy regarding requests for NTVs.

      Justification and Vehicle Registration. CJTF-101 issued a fragmentary order in
       August 2008 establishing a vehicle registration process that required units to
       submit a justification memorandum for all NTVs, signed by an O-6 level officer,
       stating that the requirement is mission-essential before vehicle registration. This
       order required all units at Bagram Air Field to register all NTVs no later than
       September 30, 2008.

      CSTC-A Leased Vehicle Standard Operating Procedures. CSTC-A published
       guidance in August 2008 to establish standards and procedures for CSTC-A
       leased vehicles.

      NTV Review Board. CJTF-101 established the NTV Review Board in
       August 2008 to review and approve new and recurring NTV lease requests.

      PARC May 2008 Policy Letter. PARC-A issued guidance in May 2008 that
       requires a cost-benefit analysis of lease versus purchase before executing any
       lease or purchase for more than 60 days.

Improving Oversight of Nontactical Vehicles
in Afghanistan
CJTF-101 established the NTV Review Board after the CJTF-101 Red Team conducted
an analysis of NTV usage at Bagram Air Field in June 2008. The Red Team study
identified the following:

      The total number of NTVs at Bagram Air Field was unknown and CJTF-101 had
       limited oversight of new NTVs brought onto the base for military use;


                                            4
      A lack of policies and a written NTV justification standard resulted in NTVs
       being issued to units or individuals that may not need them; and
      Buses at the base had few occupants while the number of NTVs with only one
       occupant was high. The study noted that this may have contributed to the
       perception noted in a June 2008 CJTF-101 report that NTVs at Bagram Air Field
       were being used for personal convenience and not military necessity.

The desired results of corrective action from this analysis would allow CJTF-101 and the
base commanders to track all NTVs in their respective operating areas.

A fragmentary order dated August 19, 2008, established and assigned responsibilities to
the NTV Review Board. Specifically, it was to review requirements and usage of NTVs
and transportation motor pools. According to NTV Review Board officials, units
requested registration of 1,813 existing NTVs at Bagram as of February 19, 2009. The
NTV Review Board approved registration for 1,499 vehicles and disapproved registration
for 314 vehicles. Of the 314 disapproved vehicles, the NTV Review Board, in
conjunction with legal counsel, determined that it would not be in the best interest of the
Government to terminate the contracts for 145 leased NTVs, and approved registration
for these vehicles only until the leases expired. Documentation provided by the audit
client showed that, on average, it costs $850 per month, or $10,200 per year, to lease one
NTV. Using this rate, the 145 leased vehicles cost the Government more than
$1.4 million that could have been put to better use had the leases not been approved when
initially submitted.

The registration process and NTV Review Board at Bagram Air Field are examples of
controls over the acquisition of NTVs. Although it may not be necessary to establish
review boards at all locations throughout Afghanistan, CJTF-101 and CSTC-A should
review all current leases to determine their necessity based on operational requirements
and usage and disapprove or terminate leases that are not justified. This would help
ensure that units are leasing only mission-essential vehicles. CJTF-101 and CSTC-A
should also implement registration processes on bases throughout Afghanistan to aid in
tracking NTVs brought on base that are not assets of the motor pools. Furthermore,
centralized management of NTVs in transportation motor pools would help give
CJTF-101 and base commanders increased oversight of NTVs throughout Afghanistan
and on bases.

Centralized Management of NTVs
Centralized management of NTVs would ensure that they are used to efficiently and
effectively fill mission requirements, and increase the oversight of the NTVs in the
operating area while decreasing the workload for contracting officers. DoD policies for
pooling vehicles state that vehicles are a limited, essential, and costly resource that must
be managed carefully and that pooling vehicles should help ensure the highest effective
level of use for DoD vehicles.




                                              5
CJTF-101 and CSTC-A did not have oversight of NTV requirements. The results of a
June 2008 CJTF-101 study indicated that CJTF-101 did not know the number of NTVs at
Bagram Air Field and had limited ability to track new NTVs brought onto the base for
military use. Having a centralized location for NTVs would increase the ability of
CJTF-101 and base commanders to track the number of vehicles in the operating area.
Using motor pools would also provide increased opportunities to conduct regular
maintenance and track usage to ensure that an NTV’s useful life is maximized and that
units use the vehicles appropriately.

Centralized management of NTVs could also help fill recurring mission requirements
more efficiently. We identified that our audit sample included 153 leased vehicles at
RCCs Bagram and Kabul. At least 44 of these vehicles were renewals of previous leases,
at a total cost of more than $1.3 million. By identifying recurring NTV requirements,
CJTF-101 and CSTC-A could establish new or expand existing motor pools to fill these
requirements instead of awarding new or renewing current NTV leases.

Centralized management of NTVs and NTV requirements would decrease the workload
on contracting officers. Current policy allows units to request the acquisition of NTVs in
support of mission requirements, which increases the workload for contracting officers.
For example, our sample identified 66 contract actions for 795 vehicles, which is an
average of 12 vehicles per contract. Centralizing the management of NTVs should
reduce the number of contract actions necessary to obtain vehicles. Using motor pools
would negate the need for units to request new NTV leases, except where motor pools
cannot meet their needs. This would decrease the need for NTV contracts and the
workload on contracting officers.

Conclusion
We commend PARC-A, CJTF-101, and CSTC-A and for taking actions to improve
controls over the NTV acquisition process. However, additional activities, such as
review of leased vehicles and establishment or expansion of motor pools would help
increase the effectiveness of contracting as well as the oversight of vehicles. Reviewing
leased vehicles and taking appropriate action to disapprove or terminate leases that may
not be justified would help increase oversight of NTVs and ensure that only the most
critical mission requirements are filled with costly NTV leases. Furthermore, the
benefits of establishing motor pools at sites throughout Afghanistan include improved
NTV tracking and regular maintenance, which would extend the life of the vehicles. It
would also decrease the workload on contracting officers in theater. Establishing motor
pools in Afghanistan to support mission transportation requirements and requiring units
to use motor pool services would help ensure that DoD is using vehicles most effectively
and leasing only those vehicles needed to support the most critical transportation
requirements.




                                            6
Management Comments on the Findings and Our
Response
Summaries of managements comments on the findings of this report and our responses
are in Appendix B.

Recommendations, Management Comments, and Our
Response
Revised Recommendations
RCC Kabul, through the Deputy CG, CSTC-A, commented that it was not the role of the
contracting center to identify mission requirements, and that it has no authority to direct
commanders to create or renovate existing motor pools, establish vehicle registration
processes, or review all NTV leases. Therefore, we have revised Recommendations A.1.,
A.2., A.3., and A.4. to remove the Principal Assistant Responsible for Contracting-
Afghanistan and Chiefs, Regional Contracting Centers from this Recommendation.

A. We recommend that the Commander, Combined Joint Task Force-101 and the
Commander, Combined Security Transition Command-Afghanistan require
commanders at all bases in Afghanistan to:

       1. Identify recurring missions at each location and determine the number
and type of nontactical vehicles needed to support those missions annually.

       2. Establish new or expand existing motor pools at bases in Afghanistan
based on past and projected nontactical vehicle requirements to adequately support
units needing nontactical vehicles for mission requirements.

       3. Establish or maintain nontactical vehicle registration processes at each
base to track the number of vehicles brought on base outside the motor pools.

       4. Review all nontactical vehicle leases to determine necessity based on
operational requirements and usage, taking appropriate action to disapprove or
terminate leases that are not justified.

Combined Joint Task Force-101 Comments
The Chief of Staff, Combined Joint Task Force-101 partially agreed with
Recommendation A.1., stating that mission requirements are not constant and that each
requirement is validated separately. The chief of staff stated that when recurring
requirements are identified, the optimum solution is to work toward providing
Government-owned vehicles.

The Chief of Staff, Combined Joint Task Force-101 agreed with Recommendations A.2.,
A.3., and A.4. The chief of staff noted that establishing motor pools would require
additional resources and current deployed units do not have the structure to manage


                                             7
motor pools. The chief of staff also noted that CJTF-101 is currently implementing a
registration process at Bagram Air Field, and the next phase is to establish registration
processes at other bases. Finally, the chief of staff stated that the process to review all
NTV leases had been initiated at Bagram Air Field, and that the NTV Review Board and
the Joint Acquisition Review Board will review all new NTV requirements for approval
or disapproval.

Our Response
Combined Joint Task Force-101 comments are partially responsive. In response to
Recommendation A.1., we agree that providing Government-owned vehicles is an
optimal solution to fill recurring NTV requirements. However, evaluating all NTV
requirements separately does not facilitate the identification of recurring NTV
requirements. As noted in our report, we identified more than $1.3 million spent to
renew vehicle leases. Identifying lease renewals, which can indicate recurring
requirements, and building a fleet of Government-owned vehicles or vehicles leased from
the General Services Administration based on these recurring requirements will provide
more centralized management of vehicles and allow redistribution of vehicles based on
priority. The chief of staff did not identify actions planned or taken to identify recurring
requirements or fill those requirements with Government-owned vehicles.

While the chief of staff agreed with Recommendations A.2. and A.4., he did not provide
actions planned or taken to address the recommendations. In response to
Recommendation A.2., the chief of staff stated that an installation management team is
required to provide adequate oversight of larger bases; however, the chief of staff did not
provide planned actions for obtaining additional resources to establish this function.
Furthermore, in response to Recommendation A.4., the comments from chief of staff did
not address existing NTV leases or specific actions regarding disapproving or terminating
leases at bases other than Bagram Air Field. The comments provided in response to
Recommendation A.3. were responsive. We request the Commander, CJTF-101 provide
additional comments in response to the final report to address Recommendations A.1.,
A.2., and A.4.

Combined Security Transition Command-Afghanistan
Comments
The Deputy Commanding General (CG), CSTC-A agreed with Recommendation A.3.,
and partially agreed with Recommendations A.1., A.2., and A.4. The Deputy CG
disagreed with the finding, stating that was inconsistent with the audit team’s briefing to
the chief of staff and that CSTC-A has a very active NTV program. The Deputy CG
stated that CSTC-A provides effective oversight of new and existing leased vehicle
requirements through review boards and a leased vehicle program manager.
Additionally, the Deputy CG noted that while the Command maintains overall visibility
of the leased vehicle program, organizations are responsible for identifying their vehicle
needs. The Deputy CG stated that when leases approach expiration, units are alerted to
resubmit a requirement for renewal or turn in the vehicles.




                                             8
The Deputy CG stated that transitioning to a central transportation motor pool in the near
term was not feasible due to a lack of sufficient space and personnel; however, he stated
that it is possible for the future, and that it is a long-term goal of CSTC-A. The Deputy
CG stated that establishing motor pools would shift property accountability and contract
management responsibilities from units to motor pool managers, and maintained that the
current organizational controls within the Command provide adequate accountability and
allow the Command to exercise due diligence and fiscal responsibility. The Deputy CG
also identified space and personnel restrictions as obstacles to implementing vehicle
registration processes at each base.

The Deputy CG stated that requests for new leases and lease renewals from all
organizations undergo several reviews, and requests are disapproved or leases are
terminated if requested requirements are insufficient or no longer valid. The Deputy CG
stated that CSTC-A is exercising due diligence in limiting the number of leased vehicles
while still meeting mission requirements. The Deputy CG also noted that in 2007, they
submitted a request for 109 Government-owned vehicles, but it has not yet been
approved.

Our Response
Comments from the Deputy CG, CSTC-A were partially responsive. We agree that
CSTC-A has improved controls over the NTV acquisition process by implementing
multiple review boards and establishing a leased vehicle program manager to approve
and oversee acquisition of NTVs. We also agree that establishing motor pools would
require a shift in responsibilities. However, our report specifically linked a large number
of lease renewals to the need for Commands to identify and plan for recurring NTV
mission requirements. Furthermore, we also maintain that establishing motor pools
would allow more centralized oversight and better management of NTVs, specifically
those acquired to fill recurring requirements. We commend CSTC-A for requesting
Government-owned vehicles, and encourage Commands to continue this practice when a
lease-versus-purchase analysis shows this is in the best interest of the Government.
Finally, we appreciate the comment by the Deputy CG that our report finding is
inconsistent with the briefing to the chief of staff, but we emphasized during the briefing
that the results were preliminary and depended on further analysis.

Although the Deputy CG only partially agreed with Recommendation A.4., we consider
the comments responsive. We agree that the review processes described will provide
assurance that only NTV requests for valid mission requirements are approved.

While the Deputy CG agreed or partially agreed with Recommendations A.1., A.2., and
A.3., he did not identify specific actions planned or taken to identify recurring NTV
requirements, establish motor pools, or implement a vehicle registration process. We
request the Commander, CSTC-A provide additional comments in response to the final
report to address these recommendations.




                                             9
Regional Contracting Center Kabul Comments
RCC Kabul, through the Deputy CG, CSTC-A, did not agree that it was the responsible
organization for these recommendations. RCC Kabul stated that the role of the
contracting center is to procure the assets to fill mission requirements, and that it tracks
service contracts, such as vehicle leases, to monitor contracting processes and ensure
options are executed in a timely manner. RCC Kabul stated that it is not the role of the
contracting center to identify mission requirements, and that it has no authority to direct
commanders to create or renovate existing motor pools, establish vehicle registration
processes, or review all NTV leases. However, RCC Kabul noted that it can advise on
procurement methods and provide commanders information on past procurements.

Our Response
We agree with the comments from RCC Kabul, through the Deputy CG, CSTC-A, and as
a result, we revised the recommendations to exclude RCC Kabul. No additional
comments are required on these recommendations.

Regional Contracting Center Bagram
The Chief, RCC Bagram did not comment on the recommendations. However, based on
comments we received from RCC Kabul, we revised the recommendations to exclude
RCC Bagram so no comments are needed.




                                             10
Finding B. Contracting for Nontactical
Vehicles in Support of Operation Enduring
Freedom
Contracting for NTVs in support of Operation Enduring Freedom needs improvement.
Contracting officers at RCCs Bagram and Kabul did not maintain a complete contract
history of pre-award, award, or administration documentation, and they did not appoint
contracting officer’s representatives to oversee the contracts. As a result, DoD could not
have reasonable assurance that vehicle acquisitions valued at more than $14 million:

       were mission-essential,
       complied with contract requirements, or
       represented the best value to the Government.

Contracting officers must fully implement policy and controls governing the contracting
of NTVs to help improve the effectiveness of contracting processes for NTVs.

In the draft of this report, we recommended that the Joint Contracting Command-
Iraq/Afghanistan (JCC-I/A) update its Acquisition Instruction to include detailed
guidelines about the documentation to maintain in contract files and continue to monitor
the contracting processes of RCCs in Afghanistan. In response to this recommendation,
JCC-I/A provided an updated Acquisition Instruction and standard operating procedures
that addressed these issues.

Contract Documentation
Contracting officers did not maintain adequate documentation to provide a history that
supported contract actions. FAR Subpart 4.8, “Government Contract Files,” states the
documentation in the contract file is to be sufficient to provide background and support
for decisions throughout the acquisition process and provide information for reviews,
investigations, and congressional inquiries. Documents normally in official contracting
files are to include:

       presolicitation documents, including justifications and approvals;
       award documentation, including a list of sources solicited, the solicitation, and a
        copy of each offer or quotation received; and
       contract administration documents.




                                             11
Table 2 identifies the number of contract files at RCCs Bagram and Kabul that did not
contain adequate documentation to support decisions throughout the history of the
contract.

  Table 2. Number of Contract Files That Did Not Support Contracting Decisions
                           RCC Bagram          RCC Kabul            Total
    Contract Documents
                           (38 contracts)     (28 contracts)    (66 contracts)
Justification                    25                25                 50
Requirement approval             13                23                 36
Award                             8                23                 31
Lease-versus-purchase            38                27                 65
Vehicle usage                    38                28                 66
COR delegation letter            38                16                 54

Pre-Award Documentation
Contracting officers did not always maintain documentation in official contract files for
pre-award decisions. As shown in Table 2, contract files lacked pre-award
documentation, such as justification for NTVs and lease-versus-purchase analyses.

Nontactical Vehicle Justifications
We estimate that 68 percent of 215 contract files did not contain adequate justifications
for requested NTVs. Where justifications were documented, they generally did not fully
explain the need for the NTVs requested. A June 2008 CJTF-101 report on the use of
NTVs stated that “there is a widely held perception that NTVs are being used for
personal convenience, not military necessity.” Without justification for NTVs, we could
not determine whether units acquired vehicles for critical missions or for convenience.

In August 2008, CJTF-101 issued policy for the management of NTVs at Bagram Air
Field. This policy states that justification requests for NTVs must indicate that the NTV
requirement is mission-essential. The request must address the need for the vehicle, the
number of personnel assigned to the unit and the number of vehicles on hand, the time
period for which the vehicle is requested, and why bus transportation or temporary
vehicles cannot support the mission. Maintaining copies of these requests as part of the
official contract file would provide sufficient documentation to determine why units
requested NTVs.

PARC-A did not identify issues with justifications in contract files during semiannual
procurement management reviews.* Recent procurement management review reports for
RCCs Bagram and Kabul stated that contract files contained strong requirement
definitions. However, our audit results were inconsistent with this finding.




*
  The procurement management reviews are not solely for NTV contracts. However, PARC-A conducts
these reviews to assess implementation of policies and procedures; therefore we assume that the results of
these reviews are representative of the contract processes implemented at the RCC.


                                                    12
Lease-Versus-Purchase Analyses
Of the 66 contract files we reviewed, only one contract file contained a lease-versus-
purchase analysis for NTVs. FAR 7.401, “Acquisition Considerations,” states that
agencies should consider whether to lease or purchase equipment on a case-by-case
evaluation of comparative costs, estimated period of use, extent of use within that period,
purchase price, and potential for use of the equipment by other agencies after its use by
the acquiring agency ends. JCC-I/A personnel and contracting officers stated that they
would not be able to purchase vehicles because the procurement funds were limited and
operations and maintenance funds could not be used to purchase NTVs. Therefore, they
did not complete the analyses or they completed the analyses only to record the best
value, not to ensure it.

We estimate that 22 percent of the 215 Afghanistan contracts were lease renewals. For
16 of the 66 contracts in our sample, contracting officers either renewed leases through
new contract actions or extended existing lease contracts at a cost of more than
$1.3 million. For example, the RCCs extended leases for 14 vehicles beyond 18 months,
for a total cost of more than $523,000. For each of these lease renewals, the contract files
had no evidence of lease-versus-purchase analyses conducted during the life of the
contract. Reviewing lease-versus-purchase analyses should help ensure that contracting
decisions are in the best interest of DoD.

Award Decision
We estimate that 34 percent of the 215 Afghanistan contract files for NTVs did not
contain any documentation to determine why the contract was awarded to the selected
contractor. In addition, 14 of the 66 contract files we reviewed in our sample did not
contain any type of solicitation or award information in the contract file, such as the
solicitation document, vendor quotes, or an abstract of offers. FAR Subpart 4.8 requires
contract file documentation to provide a complete background as a basis for informed
decisions at each step in the acquisition process.

Contract Administration
Contracting officers at RCCs Bagram and Kabul did not routinely appoint CORs to
administer and oversee contracts as required by DoD policy. We estimate that CORs
were not appointed for 85 percent of the 215 Afghanistan contracts. Contracting officers
at RCC Bagram stated that they did not appoint CORs because it was an administrative
burden or because the procurement contracting officer conducts an initial inspection
before turning the vehicle over to the customer. In addition, one RCC Kabul contract for
more than $6 million contained documentation in the contract file stating that assigning a
COR to accept vehicles or provide quality assurance reviews was not cost-effective.

DoD guidance states that contracting officers must designate, in writing, a properly
trained COR for service contracts and include a copy of the written delegation in the
official contract file. The Deputy Secretary of Defense stated in an August 22, 2008,
memorandum that CORs are critical to ensuring that contractors comply with all contract
requirements and that overall performance is commensurate with the level of payments
made throughout the life of the contract. In a February 9, 2007, memorandum, the


                                            13
Deputy Assistant Secretary of the Army (Policy and Procurement) stressed the
importance of making this appointment before contract performance begins. JCC-I/A,
PARC-A, and CJTF-101 have also supplemented DoD regulations and policy with
additional requirements for appointing CORs. However, contracting officers generally
did not assign CORs to administer and monitor NTV contracts.

According to Army guidance, a key function of a COR is to accept vehicles and ensure
they comply with contract terms and requirements. However, 58 of the 66 contract files
we reviewed did not contain any vehicle acceptance documentation that clearly identified
whether the delivered vehicles met contract requirements. Without such documentation,
we could not determine whether 776 vehicles complied with contract delivery date and
other contract specifications, such as make, model, year, mileage, and condition.

We identified acceptance documentation in 8 of the 66 contract files; however, it revealed
that Government representatives accepted at least 15 vehicles, at a cost of more than
$1.1 million, even though they did not meet the terms of the contracts. For example, one
contract to lease a Toyota Land Cruiser stated that the vehicle should not have more than
10,000 kilometers; however, the vehicle inspection report showed that the odometer read
more than 24,500. Another contract to lease one van and two pickup trucks stated that
the trucks should not be older than 2006 and should have fewer than 10,000 kilometers.
The vehicle inspection reports, however, showed that one truck was a 2005 model with
38,383 and another had an odometer reading of 70,061. The van included on the contract
did not have a vehicle inspection report; therefore, we could not determine whether the
van complied with the terms of the contract.

Contract Documentation Guidelines
In response to Recommendation B.2., JCC-I/A provided an updated Acquisition
Instruction, which included guidance for maintaining contract files. In a draft of this
report, we identified that turnover of contracting personnel as units rotate had contributed
to inconsistent documentation in the contract files. During our audit, contracting officers
often could not answer questions about gaps in contract documentation, stating the
previous contracting officers had awarded the contracts. Furthermore, the draft of this
report identified that the January 2006 JCC-I/A Acquisition Instruction identified clear
guidelines and checklists for the contents of contract files, but the July 2008 Acquisition
Instruction did not provide sufficient guidance for contract files. It also highlighted the
importance of developing and implementing strong contracting policy and oversight of
contracting activities, especially in a dynamic environment.

The JCC-I/A Acquisition Instruction, dated April 1, 2009, includes guidance for
maintaining contract files and specifically references the Army File Index. This index
provides a comprehensive list of documents related to solicitation, proposal review,
contract award, and administration. Specific documents include a purchase request,
determination for equipment lease versus purchase, a solicitation list, source selection
documentation, and COR nomination. We believe that following this list will ensure
contracting officers maintain contract files that provide an adequate history of the
transaction in accordance with FAR requirements.


                                            14
JCC-I/A also provided standard operating procedures for procurement management
reviews to evaluate contract files for documentation regarding solicitation, basis of
award, and inspection and acceptance. The standard operating procedures also require
RCC Chiefs to conduct self-assessments and perform self-oversight in addition to formal
procurement management reviews. We believe that implementation of these procedures
will ensure more thorough oversight of contracting processes at RCCs.

Management Actions and Conclusions
We commend CJTF-101, CSTC-A, and PARC-A for actions taken to address issues
related to NTVs and contracting. PARC-A and CJTF-101 have issued policy that
outlines the process for requesting and approving NTVs. CJTF-101 has established an
NTV Review Board to review new and ongoing NTV leases based on mission
requirements, and CSTC-A has identified a program manager for NTVs to monitor lease
terms, provide oversight of CORs on NTV contracts, approve new NTV leases, and track
all NTVs in the Kabul area.

However, contracting for NTVs could be improved. DoD did not have assurance that
more than $14 million in NTVs were justified or met contract requirements.
Furthermore, in the absence of lease-versus-purchase analyses, DoD did not have
assurance that leasing vehicles represented the best value to the Government. Federal
guidance provides many flexibilities for contracting operations in a contingency or
emergency environment. However, these flexibilities do not provide a blanket waiver of
requirements for contracting procedures.

The turnover of contracting personnel has contributed to inconsistent contract file
documentation at RCCs Bagram and Kabul. In April 2009, JCC-I/A updated its
Acquisition Instruction, and following this guidance will help ensure that contracting
officers maintain sufficient documentation in contract files to reconstruct the history of
the contract, and it will facilitate a more seamless transition between unit rotations. In
addition, contracting officers should appoint CORs to oversee contracts for leased NTVs.
Finally, more thorough procurement management reviews at the PARC-A level would
help ensure that contracting problems are identified and addressed in a timely manner.
These actions should improve the effectiveness of contracting processes for NTVs.




                                            15
Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments, we revised Recommendation B.1.b. to ensure
contracting officers review the lease-versus-purchase analysis prepared by the requesting
organizations.

B.1. We recommend that the Chiefs, Regional Contracting Centers Bagram and
Kabul require contracting officers to:

       a. Maintain contract files that can reconstruct the history of the contract,
including justification for the contract, award decisions, and contract
administration;

      b. Review lease-versus-purchase analyses for vehicles to ensure the
Government is getting the best value;

      c. Appoint contracting officer’s representatives to ensure oversight of
contracts for leased nontactical vehicles; and

       d. Ensure completion of vehicle inspection reports when documenting
acceptance of NTVs and reject noncompliant vehicles, or delegate this responsibility
to a contracting officer’s representative.

Regional Contracting Center Kabul Comments
RCC Kabul, through the Deputy CG, CSTC-A, agreed with Recommendations B.1.a. and
B.1.d. RCC Kabul stated that the requirement to maintain complete contract files,
including NTV justifications, a lease-versus-purchase analysis, and vehicle inspection
reports, is in place at all the RCCs, and that the documentation should be in the contract
files for all current and future contracts. RCC Kabul stated that it will also emphasize the
need for complete contract file documentation during weekly training sessions and staff
meetings. RCC Kabul noted that the JCC-I/A Acquisition Instruction requires the use of
indexes for contract file documentation and that, as of September 30, 2008, PARC-A
requires a peer review on all contracts, regardless of dollar value.

RCC Kabul partially agreed with Recommendation B.1.b. and stated that a preliminary
lease-versus-purchase analysis is required for any lease longer than 60 days, and that,
depending on the dollar value, should have been included in the files we reviewed.
However, RCC Kabul noted that requesting organizations are responsible for conducting
the lease-versus-purchase analysis and submitting it to the contracting office. RCC
Kabul stated that it will continue to review the analyses, and that it is required to obtain a
legal review by PARC-A prior to solicitation and award for contract actions exceeding
$750,000.



                                              16
RCC Kabul partially agreed with Recommendation B.1.c., stating that JCC-I/A requires
CORs to be appointed for all contracts with significant technical requirements. However,
RCC Kabul stated that NTV contracts are generally considered simplified acquisitions
and do not require ongoing surveillance or warrant a COR. RCC Kabul also stated that it
is often unable to obtain CORs from requiring organizations, and is currently
experiencing a shortage of CORs for all acquisitions that should have a COR. However,
RCC Kabul stated that it often appoints CORs on NTV contracts with large dollar values
to ensure proper accountability, and it will make an effort to appoint CORs for lease
contracts with a large number of vehicles.

Our Response
We consider comments from RCC Kabul to Recommendations B.1.a. and B.1.d.
responsive. We commend RCC Kabul for its actions taken to address these issues. We
agree that maintaining complete contract file documentation and stressing the importance
of this during training sessions will help improve contracting for NTVs in support of
Operation Enduring Freedom.

Based on management comments, we revised Recommendation B.1.b. As a result, the
comments from RCC Kabul are responsive, and no additional comments are required.

We consider comments from RCC Kabul to Recommendation B.1.c. generally
responsive. We acknowledge that RCC Kabul is making an effort to appoint CORs for
contracts to lease a large number of vehicles, and we also understand that there is a
shortage of CORs. However, our report highlighted policy issued by the Deputy
Secretary of Defense and the Deputy Assistant Secretary of the Army (Policy and
Procurement) that emphasizes the need for effective surveillance of service contracts and
requires that CORs be appointed prior to contract award. The memorandum from the
Deputy Secretary of Defense notes that COR duties should be tailored to dollar value and
complexity of the requirements.

Our report identified that the Government accepted vehicles at a cost of more than
$1.1 million even though they did not meet the terms of the contracts. While NTV
contracts do not have significant technical requirements to require ongoing surveillance,
this point emphasizes the importance of contractor surveillance as it relates to performing
and documenting vehicle acceptance to ensure NTVs comply with contract requirements.
If RCC Kabul is going to appoint CORs to those contracts with a large number of
vehicles, it should clearly identify how many vehicles constitute a large number to ensure
those contracts have CORs appointed. We request that the Chief, RCC Kabul provide
additional comments on this recommendation.

Regional Contracting Center Bagram
The Chief, RCC Bagram did not provide comments to Recommendation B.1. We request
that the Chief provide comments in response to the final report.




                                            17
Principal Assistant Responsible for Contracting-Afghanistan
Comments
Although not required to comment on this recommendation, the Chief of Staff, U.S.
Central Command endorsed and forwarded comments from the Director of Operations,
JCC-I/A on behalf of PARC-A.

The director stated that RCCs maintain individual files for NTV contracts, including
documentation for the justification of the NTV requirement and award decision. The
director also stated that Army guidance requires all RCCs to appoint CORs for all service
contracts, including NTV contracts. The director stressed that PARC-A checks
compliance with these requirements via semi-annual procurement management reviews.
The director also noted that joint inspections with the customer and the contractor are
conducted before the Government accepts any vehicle. If vehicles do not meet contract
requirements, the Government will reject the vehicle or ensure the contractor corrects the
problem.

The director stated that contracting officers and activities conduct lease-versus-purchase
analyses and submit them to the Joint Acquisition Review Board. The director identified
that the report did not address Army regulations or Government Accountability Office
decisions regarding the acquisition and management of NTVs. Specifically, the director
identified that the Government Accountability Office lifted the fiscal law restrictions for
purchasing passenger motor vehicles in relation to 4-door passenger cab pickup trucks.
The director also pointed out that our report did not address the option to obtain vehicles
at a lower cost through the General Services Administration, or the requirement that
passenger bus service must be determined impractical prior to leasing or purchasing
NTVs.

Our Response
As discussed in our report, we identified that 68 percent of contract files did not contain
adequate NTV justifications, 34 percent of contract files did not contain any
documentation to support the award decision, and 85 percent of contract files did not
have documentation of a COR appointment. We acknowledge that our findings are based
on a data set ranging from October 2005 to July 2008, and that JCC-I/A, PARC-A, and
the RCCs have made improvements to contracting processes since the time of our review.

Recent procurement management reviews at RCCs Bagram and Kabul identified
deficiencies regarding COR appointment and contract file documentation, but stated that
these deficiencies are being corrected through training and peer reviews. We obtained
and reviewed the updated JCC-I/A Acquisition Instruction, and agree that following this
policy, in conjunction with training and peer reviews, will help ensure contracting
officers maintain more complete contract files.




                                            18
The director commented on lease-versus-purchase analyses and the option to lease
vehicles through the General Services Administration. Our report identified that only
1 of the 66 contract files we reviewed contained documentation of a lease-versus-
purchase analysis, which compared the costs of local leases and purchases. We agree that
the option to lease vehicles through the General Services Administration should be
evaluated whenever possible. Our methodology for this audit was not to evaluate actual
contracting decisions or the method for obtaining vehicles. Therefore, we did not address
the option of acquiring vehicles through the General Services Administration, nor did we
evaluate the practicality of utilizing bus service versus leasing NTVs. Rather, we
evaluated whether the contracting decisions were supported by documentation in the
contract files. Furthermore, we do not dispute the decision of the Government
Accountability Office Comptroller to lift the fiscal law restrictions on specific pickup
trucks, and the ability of contracting officers to compare these pickups to sport utility
vehicles in the lease-versus-purchase analyses. Rather, we emphasize that lease-versus-
purchase analyses should document a consideration of all acquisition options prior to
awarding contracts to ensure the Government is receiving the best value.

The director’s comments on vehicle inspection and acceptance confirm the requirements
for these processes. However, he did not specify actions the RCCs have planned or
implemented to ensure that inspections are performed and documented, and that
noncompliant vehicles are rejected. As we identified in our report, 58 of the 66 contract
files we reviewed did not contain any vehicle acceptance documentation, while the files
that contained documentation revealed that the Government accepted at least 15 vehicles,
totaling more than $1.1 million, that did not comply with contract requirements. This
point emphasizes the need for vehicle inspections to be completed and documented to
ensure that vehicles the Government receives adequately meet the mission requirements.

B.2. We recommend the Commander, Joint Contracting Command-
Iraq/Afghanistan update the Joint Contracting Command-Iraq/Afghanistan
Acquisition Instruction to include additional guidelines on maintaining contract files
in a standard format for pre-award, award, and contract administration activities to
meet Federal Acquisition Regulation requirements.

Joint Contracting Command-Iraq/Afghanistan
The Commander, JCC-I/A did not provide comments. However, we obtained and
evaluated the April 2009 Acquisition Instruction and determined that it meets the intent
of our recommendation by referencing a list of documentation regarding solicitation,
contract award, and administration that should be included in the contract file. We
believe that using this list will allow contracting officers to maintain contract files that
provide an adequate history of the transaction in accordance with FAR requirements. We
modified the “Contract Documentation Guidelines” section of the report to include our
analysis of the April 2009 Acquisition Instruction. No additional comments are required.




                                            19
B.3. We recommend the Commander, Principal Assistant Responsible for
Contracting-Afghanistan conduct more thorough procurement management
reviews to ensure that contracting problems are identified and addressed in a timely
manner.

Principal Assistant Responsible for Contracting-Afghanistan
Comments
The Chief of Staff, U.S. Central Command endorsed and forwarded comments from the
JCC-I/A on behalf of the PARC-A. The PARC-A partially agreed with the
recommendation, stating that RCCs are inspected twice per year, and that JCC-I/A
guidance was recently updated to increase the rigor of the inspections, emphasize the
importance of routine self-evaluations, and update the evaluation checklists.

Our Response
Although PARC-A only partially agreed, we consider the comments responsive.
JCC-I/A provided standard operating procedures for inspecting contracting processes and
reporting deficiencies. We updated the report to include discussion on these procedures
(pages 14-15). We believe that implementation of these procedures will ensure more
thorough oversight of the contracting processes at RCCs. No additional comments are
required.




                                          20
Appendix A. Scope and Methodology
We conducted this performance audit from June 2008 through February 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit scope encompasses NTV contract actions from October 1, 2005, through
July 15, 2008. We limited our scope to contracts awarded at RCCs Bagram and Kabul,
Afghanistan. We reviewed official contract files and resource management files for
documentation of justification of need or requirement; lease-versus-purchase analysis;
contract award; COR appointment; and vehicle acceptance, compliance, and use. We
reviewed the FAR as well as published guidance from DoD, Joint Contracting Command,
Combined Joint Task Force-101, and Combined Security Transition Command-
Afghanistan. We also reviewed local RCC policies and standard operating procedures
for contracting processes. We interviewed personnel from the following organizations:

      Under Secretary of Defense for Acquisition, Technology, and Logistics,
          Defense Procurement, Acquisition Policy and Strategic Sourcing;
      U.S. Central Command;
      Joint Contracting Command-Iraq/Afghanistan;
      Principal Assistant Responsible for Contracting-Afghanistan;
      Combined Joint Task Force-101;
      Combined Security Transition Command-Afghanistan;
      Regional Contracting Center Bagram;
      Regional Contracting Center Kabul;
      Bagram Air Field Resource Management Office;
      Bagram Air Field Base Operations;
      Bagram Air Field Nontactical Vehicle Review Board;
      Bagram Air Field Nontactical Vehicle Working Group;
      Kabul Resource Management Office;
      Camp Eggers Base Operations; and
      Camp Eggers Transportation Motor Pool.

Use of Computer-Processed Data
We relied on computer-processed data from the Joint Contingency Contracting System
(JCCS), which is a computer database that allows the posting of contract opportunities,
captures vendor proposals, and documents contract awards. Once a contracting officer
awards a contract, contracting personnel enter specific data associated with the contract
award into JCCS. We extracted from JCCS 387 NTV contracts awarded at 6 RCCs in
Afghanistan between October 1, 2005, and July 15, 2008. We used these data to develop




                                           21
a statistical sample of NTV contracts in Afghanistan to assess the effectiveness of various
aspects of NTV contracting. See the Use of Technical Assistance for additional
information about the statistical sample.

The computer-processed data from JCCS were sufficiently reliable, given our use of them
to develop a statistical sample of NTV contracts. However, we identified several errors
in the computer-processed data, none of which significantly impacted our audit results.
Specifically, JCCS award amounts and dates were sometimes inaccurate when compared
to official contract files. We mitigated JCCS errors by relying on the official contract
files, interviews, and other types of evidence to perform our analysis.

We could not review four contracts in our sample because, upon review of the official
contract files, we determined that two contracts were not for NTVs, one was awarded at a
different RCC, and one was canceled after award. Even though we could only audit
66 NTV contracts in the sample, we projected our results against a sample of 70 contracts
to provide a conservative result.

Use of Technical Assistance
The Quantitative Methods and Analysis Division developed the statistical sample of NTV
contracts awarded in Afghanistan. It used a stratified sample design to ensure that RCCs
Bagram and Kabul were appropriately represented in the sample. The other four RCCs
were not considered for the sample because RCCs Bagram and Kabul had the largest
number of contract actions with the highest dollar values. Specifically, of the 387 NTV
contracts awarded in Afghanistan (the universe), 215 were awarded at RCCs Bagram and
Kabul (the subpopulation). Table A-1 shows the scope of Afghanistan NTV contracts.

                Table A-1. Scope of NTV Contracts Reviewed for Afghanistan
                   Subpopulation              Sample              Audited Sample
    RCC        Contract     Value1    Contract     Value1      Contract     Value2
               Actions                 Actions                 Actions
Bagram           163      $ 6,261,414    40      $ 1,136,436      38     $ 1,315,440
Kabul             52      $23,054,384    30      $14,165,689      28     $12,760,749
1
    Dollar value according to JCCS.
2
    Dollar value based on official contract files.

The Quantitative Methods and Analysis Division selected random samples from RCCs
Bagram and Kabul and performed calculations to estimate conditions for the
subpopulations based on the audited sample results. In general, the estimates quantified
weaknesses in performing effective NTV contracting. The estimates are based on a
90 percent confidence level, which means there is a 10 percent risk that the interval does
not encompass the true subpopulation value.




                                                     22
The statistical estimates are in Table A-2. The first row in the table shows that between
57.3 and 77.8 percent of the 215 contracts contained inadequate justification for obtaining
an NTV. The point estimate was 67.5 percent. The corresponding number of NTV
contracts with no NTV justification lies in a range from 123 to 167 with a point estimate
of 145. The other three estimates can be interpreted the same way.

                  Table A-2. Detailed Statistical Estimates Assessing the
                      Effectiveness of NTV Contracting in Afghanistan
       Measure of NTV                    Lower Bound          Point Estimate*          Upper Bound
  Contracting Effectiveness                 (Percent)              (Percent)             (Percent)
Inadequate or lack of                          123                    145                    167
  justification                               (57.3)                 (67.5)                (77.8)
No award decision rationale                     53                     72                     92
                                              (24.8)                 (33.7)                (42.6)
NTV lease renewals                              27                     46                     66
                                              (12.6)                 (21.6)                (30.6)
COR not appointed                              169                    183                    196
                                              (78.7)                 (84.9)                (91.1)
* The point estimate is a single numerical value halfway between the upper and lower bounds.

Prior Coverage
During the last 5 years, DoD Inspector General (IG), Army Audit Agency, and Air Force
Audit Agency have issued three reports addressing issues related to NTV contracting
processes and tracking in Southwest Asia. Unrestricted DoD IG reports can be accessed
at http://www.dodig.mil/audit/reports. Unrestricted Army Audit Agency reports can be
accessed at https://www.aaa.army.mil/reports.htm. Unrestricted Air Force Audit Agency
reports can be accessed at https://www.afaa.hq.af.mil.

DoD IG
DoD IG Report No. D-2009-007, “Procurement and Use of Nontactical Vehicles at
Bagram Air Field, Afghanistan,” October 31, 2008

Army
Army Audit Agency Report A2007-0011-ALL, “Audit of Nontactical Vehicle Usage in
the Iraq Area of Operations, Audit of Logistics Civil Augmentation Program Operations
in Support of Operation Iraqi Freedom,” November 16, 2006

Air Force
Air Force Audit Agency Report F2007-0004-FC4000, “Deployed Assets,”
January 26, 2007




                                                23
Appendix B. Management Comments on the
Findings and Our Response
Our detailed response to the comments from U.S. Central Command and the Combined
Joint Task Force-101 on the report findings follow. The complete text of these comments
can be found in the Management Comments section of this report.

U.S. Central Command Comments
Although not required to comment, the Chief of Staff, U.S. Central Command did not
believe the report accurately reflected current acquisition processes for establishing
contracts for NTVs in Afghanistan. Furthermore, the chief of staff stated that the data set
upon which the audit team drew conclusions did not reflect the effort and procedures to
improve NTV oversight.

Our Response
Our report commended PARC-A, CJTF-101, and CSTC-A for recent improvements in
the controls over the NTV acquisition process. Specifically, we highlighted that
CJTF-101 established a vehicle registration processes and an NTV Review Board. We
also noted that CSTC-A published standard operating procedures for leased vehicles in
August 2008. We concluded that these actions strengthened controls over the NTV
acquisition process (page 4).

Combined Joint Task Force-101 Comments
The Chief of Staff, CJTF-101 disagreed with the finding, stating that CJTF-101 and
CSTC-A have made great strides in improving the management of leased vehicles at
Bagram Air Field and vehicles leased through CSTC-A. He noted that the Combined
Joint Task Force headquarters transitioned several times between October 2005 and July
2008, with CJTF-101 assuming command in April 2008. The chief of staff stated that at
this time, CJTF-101 maintained strict validation procedures for all new NTVs, initiated
reviews of existing NTVs, and implemented a registration process at Bagram Air Field.
In light of these actions, the chief of staff requested that the audit team revise the report
language to note that, while CJTF-101 and CSTC-A have improved controls, there is
more that can be done to improve the management of recurring requirements to ensure
effective contracting for NTVs. The chief of staff also commented on the Results in
Brief page, stating that the audit team should revise the results to state that CJTF-101 and
CSTC-A took steps to improve management and oversight of NTVs.

The Chief of Staff, CJTF-101 also disagreed with the statement that $1.4 million in funds
could have been put to better use. The chief of staff stated that the savings may never
have been fully realized, and allowing the use of vehicles through the end of the lease
terms facilitated ongoing missions. Further, the chief of staff stated that our report did




                                             24
not mention cost savings associated with 169 vehicles that were disapproved. The chief
of staff also suggested revised language to identify that the NTV Review Board reduced
the number of vehicles on base by 20 percent, with an associated cost savings of
$1.1 million for vehicles that were immediately turned in.

The chief of staff commented on improving oversight of NTVs in Afghanistan, stating
that the information presented in the report regarding a study of NTV usage at Bagram
Air Field was subjective and misleading. He referenced a June 2008 study by the
CJTF-101 Red Team, and stated that the NTV Review Board was implemented at
Bagram Air Field as a result of that review. The chief of staff cited language from the
audit report related to the total number of NTVs at Bagram, lack of polices and NTV
justification standards, and bus usage, specifically requesting the source information.
The chief of staff also noted that bus route support was increased in 2008, and that bus
usage increased by almost 40 percent from August 2008 to February 2009. The chief of
staff requested that the audit team delete the information in the report, and provided
suggested language to replace it.

The chief of staff noted that Task Force Warrior implemented a centralized NTV
management process in July 2008, but that Task Force Warrior is not solely focused on
installation management. He stated that large installations need a dedicated installation
management team to establish and maintain oversight, and requested that the DoD IG
emphasize this in the audit report.

The chief of staff suggested additional recommendations for the audit report to ensure
support from higher headquarters in the management of NTVs. These recommendations
included guidance from U.S. Army Central Command on increased NTV acquisition
through the General Services Administration to reduce the number of leased vehicles in
theater, and guidance from U.S. Central Command on NTV utilization and standards for
support and authorizations.

The chief of staff also indicated that the audit team’s review of contract files did not
include any resource management files or documentation from the Joint Acquisition
Review Board, and requested that the audit team qualify its conclusions to note that they
did not include this documentation in its review.

Finally, the Chief of Staff, CJTF-101 commented that the caption to the photo in the
Results in Brief was not relevant to the associated discussion.

Our Response
We appreciate the comments submitted by the Chief of Staff, CJTF-101, and we agree
that they have taken steps to improve the controls over the NTV acquisition process. We
commend CJTF-101 and CSTC-A for these actions, and our report highlighted them
(page 4). In addition, we agree with the suggested language provided by the chief of staff
and have revised the finding to reflect that language. However, we maintain that the
Commands did not proactively identify recurring NTV requirements and acquire or
manage NTVs to fill those requirements.


                                            25
Our report identified costs of approximately $1.4 million for leased vehicles that were
disapproved by the NTV Review Board. We commend CJTF-101 for establishing the
NTV Review Board, and commend the Board for validating all vehicles on the base.
However, this point emphasizes that $1.4 million could have been put to better use had
those leases not been approved when initially submitted. We clarified this point in the
report (page 5). We did not show cost savings for the 169 disapproved vehicles because
we could not determine from the information provided whether these vehicles were
leased or Government-owned. In addition, we could not substantiate that the NTV
Review Board reduced the number of vehicles on base by 20 percent, with an associated
cost savings of $1.1 million; therefore we did not include these numbers in the report.

Our report also identified the results of a June 2008 study conducted by the CJTF-101
Red Team (pages 4-5). Specifically, this study identified issues related to the total
number of NTVs at Bagram Air Field, lack of policies and written NTV justification
standards, and a low usage rate of buses. The Red Team study also stated that there is a
widely held perception that NTVs were being used for personal convenience and not
military necessity. We revised this part of the report to clearly identify that the source of
this information was the CJTF-101 Red Team study.

We appreciate the resource constraints noted by the chief of staff, and understand that a
dedicated installation management team would be helpful in establishing and maintaining
oversight at large installations. However, decisions regarding prioritization of resources
and requests for additional resources should be directed to higher headquarters for review
and consideration.

We also appreciate the suggested recommendations provided by the chief of staff. Our
report identified the recommendations we believe can improve the management of
contracting for NTVs in Afghanistan. We considered the suggested recommendations,
but determined that they should be directed through the chain of command for
consideration and action by U.S. Central Command and U.S. Army Central Command.

Our methodology for conducting this audit included a review of all documentation for the
contracts and task orders in our sample. We interviewed contracting and resource
management personnel and reviewed all available documentation that was relevant to our
contract sample. This documentation included contract files and resource management
files. We revised our scope and methodology in Appendix A to identify all
documentation we reviewed for this audit.

We considered the suggestions made by the chief of staff in regards to the Results in
Brief presented in the report. We reflected changes to the finding paragraph in the
Results in Brief, and we deleted the photo from the Results in Brief to accommodate
discussion of management comments.




                                             26
U.S. Central Command Comments




                 Click to add JPEG file




                                27
Joint Contracting Command-Iraq/Afghanistan and
Principal Assistant Responsible for Contracting-
Afghanistan Comments




                   Click to add JPEG file




                                  28
                           Final Report
                            Reference




                         Revised
                         Page 15

Click to add JPEG file




               29
Combined Joint Task Force-101 Comments




                  Click to add JPEG file




                                 30
Click to add JPEG file




               31
                           Final Report
                            Reference




Click to add JPEG file



                         Revised
                         Page i




               32
                           Final Report
                            Reference




                         Revised
                         Page 21




                         Revised
                         Page 5
Click to add JPEG file




                         Deleted




               33
                           Final Report
                            Reference




                         Revised
                         Page 4




                         Revised
                         Pages 4-5

Click to add JPEG file




               34
Click to add JPEG file




               35
Combined Security Transition Command-Afghanistan and
Regional Contracting Center Kabul Comments




                  Click to add JPEG file




                                 36
Click to add JPEG file




               37
                           Final Report
                            Reference




Click to add JPEG file
                         Revised
                         Recommendation
                         A.1.




               38
                           Final Report
                            Reference




                         Revised
                         Recommendation
                         A.2.
Click to add JPEG file




                         Revised
                         Recommendation
                         A.3.




               39
                           Final Report
                            Reference




                         Revised
                         Recommendation
                         A.4.


Click to add JPEG file




               40
                           Final Report
                            Reference




                         Revised
                         Recommendation
Click to add JPEG file   B.1.b.




               41
Click to add JPEG file




               42
